IN THE SUPREME COURT
OF THE UNITED STATES
No.
ANTWOYN TERRELL SPENCER - PETITIONER
VS.
UNITED STATES OF AMERICA - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
t

PETITION FOR WRIT OF CERTIORARI
Antwoyn Terrell Spencer
#14781-041 Unit K1
FCI - Sandstone
P.O. Box 1000
Sandstone, MN 55072

FILED
JUN 0 2 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

BECBVEC)
JUL - 7 2020
RECEIVED
JUN 1 I 2020
supreb^court1-^

QUESTIONS PRESENTED
1. Whether the Eighth Circuit Court of Appeals Erred
Denying Petitioner a Certificate of Appealability?
2. Whether Petitioner is Deprived of his Personal Liberty
without Due Process of Law by being held to answer for
Infamous Crimes not on a Presentment and Indictment of a
Grand Jury in Violation of the Fifth Amendment of the Constitution
and Laws of the United States?

LIST OF PARTIES
[x] All parties appear in the caption of the case on the cover page.
RELATED CASES
Antwoyn Terrell Spencer v. United States, 20-mc-29-MJD, U.S. District Court for the District of
Minnesota. Judgment entered 3/24/20.
Antwoyn Terrell Spencer v. United States, 20-1913, United States Court of Appeals for the Eighth Circuit.
Judgment entered 5/15/20.
ii

TABLE OF CONTENTS

1

Opinions Below.
Jurisdiction

2

Constitutional & Statutory Provisions Involved....... 3
Statement of the Case.

.4

Reasons for Granting the Writ.

,5

Conclusion....... 7
INDEX TO APPENDICES
Appendix A - Decision of the District Court
Appendix B - Decision of the Appellate Court
iii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Barefoot v. Estelle, 463 U.S. 880,892-893 (1983)

6

United States v. Hayman, 342 US 205, 96 (1952)

6

Preiser v. Rodriguez, 411 U.S. 475,1827,1838 (1973)
Fay v. Noia, 372 U.S. 391, 399 (1963)
Ex parte Bain, 121 U.S. 1, 7 (1887)

7

1
5

Ex parte Wilson, 114 US 417, 29 (1885)........ 5
Bushell's Case Vaughan

7

STATUTES AND RULES
28 U.S.C.S 2241

.6

Federal Rules of Criminal Procedure, Preliminary Proceedings.
iiii

.5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal court:
The opinion of the United States District Court appears at Appendix
A to the petition and is
[x] published.
The opinion of the United States Court of Appeals appears at Appendix
B to the petition and is
[x] published.

(1)

JURISDICTION
[x] For cases from federal court:
The date on which the United States Court of Appeals decided my case was May 15, 2020.
[x] No petition for rehearing was filed in petitioner's case.
The jurisdiction of this court is invoked under 28 U.S.C.S 1245(1).
Judgment was entered May 15, 2020.
(2)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment: No person shall be held to answer for a capital or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury; Nor be deprived of life, liberty, or property without due
process of law.
28 U.S.C.S. 2241
(3)

STATEMENT OF THE CASE
1. On March 23, 2020, Petitioner filed a petition for a writ of Habeas Corpus Pursuant to 28 U.S.C.S.
2241.
2. On March 24, 2020, the petition was dismissed and the habeas proceedings ordered closed.
3. Petitioner filed a timely Notice of Appeal and Request for a Certificate of Appealability from the
Eighth Circuit Court of Appeals.
4. On May 15, 2020, Petitioner's request was denied.
5. The instant petition follows.
(4)

REASONS FOR GRANTING THE PETITION
The Court of Appeals Erred Denying Petitioner a "COA" (Certificate of Appealability) Because Petitioner
Made a Substantial Showing of the Denial of a Constitutional Right in Accordance with the Standards in
Barefoot v. Estelle, 463 U.S. 880, 892-893 (1983)!
Petitioner initiated habeas corpus proceedings on the grounds that petitioner is deprived of his right not
to be held to answer for infamous crimes not on a presentment and indictment of a Grand Jury, against
law, in violation of the Fifth Amendment of the United States Constitution, Ex parte Bain, 121 U.S. 1, 7
(1887), Ex parte Wilson, 114 U.S. 417 (1885), and the Federal Rules of Criminal Procedure, Preliminary
Proceedings.
The District Court dismissing petitioner's habeas petition concluded that the court was without
jurisdiction because petitioner's request for habeas relief was a second or successive petition and
petitioner had not obtained pre-authorization from the Eighth Circuit Court of appeals. And the Court of
Appeals denied petitioner a certificate of appealability based on the district court's conclusion.
(5)

In Barefoot v. Estelle, 463 U.S. 880, 892-892 (1983), this Court delineated the standards for issuance of a
certificate of appealability. This court agreed with the Courts of Appeals which ruled that "a certificate
of appealability requires petitioners to make a substantial showing of the denial of a constitutional right.
And also quoted with approval other cases, which explained that in order to make this showing a
petitioner who has been denied relief in a district court "must demonstrate that the issues are
debatable among jurist of reason; that a court could resolve the issues in a different manner; or that the
questions are adequate to deserve encouragement to proceed further."" 463 U.S., at 893, n.4.
Here, the court of appeals should've issued a certificate of appealability because:
Under 28 U.S.C.S. 2241, district courts has jurisdiction to issue writs of habeas corpus in "all cases where
any person may be restrained of his or her liberty in violation of the Constitution, or of any treaty or law
of the United States," and providing for inquiry into the facts of detention. See United States v Hayman,
342 US 205, 96 L Ed 232 (1952).
"a person in custody pursuant to the final judgment of a court of criminal jurisdiction may have a judicial
inquiry in a court of the United States into the very truth and substance of the causes of his detention,
although it may become necessary to look behind and beyond the record of his conviction to a sufficient
extent to test the jurisdiction of the court to proceed to judgment against him." Hayman at 342 US 211.
(6)

Furthermore, "the essence of habeas corpus is an attack by a person in custody upon the legality of that
custody, and the traditional function of the writ is to secure release from illegal custody." Preiser v.
Rodriguez, 411 U.S. 475,1827,1838 (1973). See Fay v. Noia, 372 U.S. 391, 399 n 5 (1963) ("habeas
corpus ad subjiciendum - the writ used to inquire into illegal detention with a view to an order releasing
the petitioner."). Historically, habeas corpus is the specific instrument when challenging illegal
detention. See Preiser v. Rodriguez, supra at 411 US 487. Also see Bushell's case, Vaughan 135,136,124
Eng Rep 1006,1007, "the writ of habeas corpus is now the most usual remedy by which a man is
restored to his liberty if he has been against law deprived of it."
Because the district court conclusion that it lacks jurisdiction over petitioner's habeas petition reasoning
that it's a second or successive 2255 is incorrect the Court of Appeals erred denying petitioner a
certificate of appealability.
CONCLUSION
Petitioner respectfully request that this court in aid of its appellate jurisdiction issue the writ of habeas
corpus requested to inquire into the truth and substance of petitioner's detention or in the alternative
remand this case to the Court of Appeals with instructions to issue petitioner a certificate of
appealability.
Respectfully Submitted,
/s/ ANTWOYN TERRELL SPENCER
(7)

(Date: 5/30/20)

